                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



November 14, 2013

James R. Dalrymple, LP 3K-C

REQUEST FOR FINAL ACTION – AUDIT 2012-14631 – REVIEW OF TVA'S
MANAGEMENT OF COMBUSTIBLE COAL DUST



Attached is the subject final report for your review and final action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us within one year from the date of this memorandum
when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Jamie M. Wykle,
Auditor, at (865) 633-7382 or Lisa H. Hammer, Director, Operational Audits, at (865) 633-
7342. We appreciate the courtesy and cooperation received from your staff during the
audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JMW:HAC
Attachment
cc (Attachment):
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
     Charles G. Pardee, WT 7B-K
     John M. Thomas III, MR 6D-C
     Andrea L. Williams, WT 9B-K
     OIG File No. 2012-14631


      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                                                   Audit Report
                                                                     To the Senior Vice President,
                                                                     Power Operations




REVIEW OF TVA’S
MANAGEMENT OF
COMBUSTIBLE COAL
DUST




Auditor                                                                                                      Audit 2012-14631
Jamie M. Wykle                                                                                              November 14, 2013


             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report




ABBREVIATIONS
ALF                        Allen Fossil Plant
BRF                        Bull Run Fossil Plant
CUF                        Cumberland Fossil Plant
ERM                        Enterprise Risk Management
FY                         Fiscal Year
KIF                        Kingston Fossil Plant
LOI                        Loss-on-Ignition
NEP                        National Emphasis Program
NFPA                       National Fire Protection Association
O&M                        Operations and Maintenance
OIG                        Office of the Inspector General
OSHA                       Occupational Safety and Health Administration
PAF                        Paradise Fossil Plant
SPP                        Standard Process and Procedure
TSP                        TVA Safety Procedure
TVA                        Tennessee Valley Authority




Audit 2012-14631

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 4

FINDINGS ......................................................................................................... 6
    EQUIPMENT CONDITIONS ARE DETERIORATING ..................................... 7

    FUNDING HAS NOT KEPT PACE WITH EQUIPMENT
    DETERIORATION ......................................................................................... 13

    HOUSEKEEPING CHALLENGES ARE NOT BEING MET ........................... 17

    HIGH PRIORITY AREAS OF COAL DUST ACCUMULATION
    NEED ATTENTION ...................................................................................... .18

    TOOLS FOR MONITORING COMBUSTIBLE DUST
    CONDITIONS ARE NOT CONSISTENTLY USED ....................................... 19

RECOMMENDATIONS ................................................................................ 20

MANAGEMENT’S RESPONSE AND OUR EVALUATION.................. 21


APPENDIX
MEMORANDUM DATED NOVEMBER 5, 2013, FROM JAMES R. DALRYMPLE
TO ROBERT E. MARTIN




Audit 2012-14631

                                      TVA RESTRICTED INFORMATION
           Audit 2012-14631 – Review of TVA’s Management
                      of Combustible Coal Dust
                       EXECUTIVE SUMMARY

Background

  Combustible dusts are fine particles that present an explosion hazard
  when suspended in air under certain conditions. Combustible coal dust
  presents a real and serious loss exposure to utility generating facilities and
  personnel safety. Coal handling and fueling operations are inherently
  dusty, requiring the highest standard of housekeeping, equipment
  tightness, and electrical integrity. Failure to establish and maintain such
  standards sets the stage for a potential catastrophic loss event that could
  jeopardize property, business operations, and life safety.

  The Occupational Safety and Health Administration issues procedures in
  the National Emphasis Program for reducing combustible dust hazards.
  The Tennessee Valley Authority (TVA) issued TVA Safety Procedure
  (TSP) 816 Combustible Dust to provide direction in complying with the
  Occupational Safety and Health Administration’s National Emphasis
  Program and describe the requirements for TVA’s Combustible Dust
  Inspecting and Reporting Program. According to TSP 816, if the coal dust
  exceeds 1/32inch thickness accumulation over a surface area of at least
  5 percent of the floor area of the facility or any given room, then cleaning
  of that area is required.

  TVA’s Coal and Gas Operations organization, within the Generation
  organization, is responsible for managing combustible coal dust.
  Mechanical Programs and Components, within Generation’s Systems
  Engineering department, manages TVA’s Combustible Dust Inspecting
  and Reporting Program.

What the OIG Found

  We evaluated the adequacy of actions taken to mitigate combustible coal
  dust risk. To do so, we reviewed policies, procedures, and regulations
  related to combustible coal dust, performed walkdowns at three of TVA’s
  coal plants to observe coal dust conditions, reviewed various documents
  and internal assessments, and interviewed TVA personnel. In summary,
  we found that despite some improvements in combustible dust
  management, actions to date have been inadequate to improve
  deteriorating equipment conditions, address housekeeping challenges,
  and provide appropriate monitoring of combustible dust conditions at
  TVA’s coal plants.

  We observed coal dust accumulations to be above the allowable 1/32 inch
  standard in many of the coal handling areas during our walkdowns at

                                                                           Page i

                       TVA RESTRICTED INFORMATION
           Audit 2012-14631 – Review of TVA’s Management
                      of Combustible Coal Dust
                       EXECUTIVE SUMMARY

  three coal generation plants. TVA self-identified coal dust accumulations
  above the allowable standard in many of the coal handling areas
  throughout the coal fleet. Coal handling equipment has deteriorated faster
  than funding was available for repairs or replacement. For example, as
  described in more detail later, a September 2011 report by our office
  identified coal dust issues which TVA began to address through a variety
  of activities, the funding for which was later eliminated. Due to the
  deteriorated equipment, housekeeping activities have not kept pace with
  dust cleaning requirements. Tools for monitoring dust conditions,
  including site dust management plans, quarterly site assessments,
  Monthly Housekeeping reports, and sampling ash for combustibility, are
  not consistently used. TVA’s aging equipment, housekeeping conditions,
  and inadequate monitoring present great challenges toward achieving
  compliance with combustible coal dust requirements.

What the OIG Recommends

  We recommend the Senior Vice President, Power Operations:

  1. Request corporate and plant staff to work together on a plan for
     correcting equipment deficiencies and work toward completion of the
     plan to improve coal dust containment. The plan should:
     a. Include estimates for resource requirements, such as funding, staff,
        and equipment needs.
     b. Include monitoring progress of equipment remediation quarterly
        using the same tracking method (similar to Work-Off Curves).
     c. Consider conducting plant walkdowns with peers from other plants
        and exchange ideas to improve coal dust management.

  2. Work with coal plants to minimize dust accumulations and address
     housekeeping challenges. Include actions, such as keeping all chute
     doors closed while coal is being transported and ensuring there are
     properly operating sump pumps and drains for removing washdown
     water and coal slurry.

  3. Dedicate more attention to address housekeeping challenges,
     particularly cleaning high overhead, hard-to-reach areas and other
     priority areas.




                                                                       Page ii

                      TVA RESTRICTED INFORMATION
           Audit 2012-14631 – Review of TVA’s Management
                      of Combustible Coal Dust
                       EXECUTIVE SUMMARY

  4. Develop site-specific dust management programs as required by
     TSP 816 to define expectations, establish standards, and monitor and
     document results. Develop site combustible dust teams and allocate
     adequate resources to meet the site-specific housekeeping goals.

  5. Perform monthly and quarterly assessments for housekeeping
     compliance to the combustible dust standards, as required by
     TSP 816, and correct deficiencies in a timely manner to address
     housekeeping challenges.

  6. Test fly ash dust quarterly to determine loss-on-ignition levels for
     combustibility.

TVA Management’s Comments

  TVA management agreed with our recommendations and has taken or is
  taking actions to address all recommendations. See the Appendix for
  TVA’s complete response.

Auditor’s Response

  The OIG (Office of the Inspector General) agrees with the actions planned
  and taken by TVA management in regards to all recommendations.




                                                                            Page iii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


BACKGROUND
Combustible dusts are fine particles that present an explosion hazard when
suspended in air under certain conditions. The National Fire Protection
Association (NFPA) defines combustible dust as “. . . a finely divided combustible
particulate solid1 that presents a flash fire or explosion hazard when suspended
in air.” Combustible coal dust presents a real and serious loss exposure to utility
generating facilities and personnel safety. Although coal can be handled safely
and can be an efficient fuel, there are explosion hazards that are heightened as
the particle size is reduced. Coal handling and fueling operations are inherently
dusty, requiring the highest standard of housekeeping,2 equipment tightness, and
electrical integrity. Failure to establish and maintain such standards sets the
stage for a potential catastrophic loss event that could jeopardize property,
business operations, and life safety.

If coal dust is suspended in air in the right concentration, under certain
conditions, it can become explosive. Coal dust explosions are classified as being
primary or secondary explosions. When combustible coal dust particles become
suspended in air and find an ignition source, a rapidly expanding ball of fire and
pulse of pressure results, which is referred to as a primary explosion. This event,
in the confines of a building, starts a repeating cycle of dust suspension, ignition,
and explosion called the secondary explosions. Secondary dust explosions are
the result of dust accumulation inside the plant being disturbed and ignited by the
primary explosion, resulting in a much more dangerous uncontrolled explosion.
Coal dust that is carried into high areas of the plant, such as overhead beams,
creates prime areas where secondary explosions can occur. These high areas
are hard to reach and not easily seen due to the dark nature of the plants,
making inspection and cleaning efforts more difficult. The coal dust that has
settled on high surfaces, if disturbed, can become suspended in air, setting the
stage for an explosion if exposed to an ignition source.

The Tennessee Valley Authority (TVA) has experienced fire events involving
combustible coal dust. Between 2008 and 2012, TVA tracked 60 fires involving
coal dust at eight coal plants. Many of the fires involved coal build-ups,
mechanical failures, or spontaneous combustion. More of these fires have
occurred at Allen Fossil Plant (ALF) and Shawnee Fossil Plant, which burn a
significant percentage of Powder River Basin coal. It is especially critical to
properly manage combustible dust when Powder River Basin coal is the fuel
because it is more volatile and more subject to spontaneous combustion than
other fossil fuels. Two of the biggest fires at TVA occurred about 20 years ago at
Colbert Fossil Plant in 1993 and ALF in 1996 (see Figure 1 on the following
page).


1
    NFPA defines combustible particulate solid as “. . . any solid material composed of distinct particles or
    pieces, regardless of size, shape, or chemical composition that presents a fire hazard.”
2
    In the power industry, housekeeping means controlling dust and preventing spills.
Audit 2012-14631                                                                                         Page 1

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report


         Colbert Fossil Plant Fire, 1993                              ALF Fire, 1996




Figure 1: Identified in a 2012 Yard Users’ Group Meeting presentation.

Due to the number of industry-wide explosions related to combustible coal and
the resulting deaths and damages,3 the U.S. Chemical Safety and Hazard
Investigation Board and Congress made recommendations to the Occupational
Safety and Health Administration (OSHA) in 2006 for prevention of hazards that
lead to worksite combustible dust explosions. In response to those
recommendations, OSHA released new policies and procedures for the reduction
or elimination of combustible dust hazards in the Combustible Dust National
Emphasis Program (NEP).4 This program affects more than 60 industries but
emphasizes 16 industries where the combustible dust hazard is greatest.
Coal fired power generation is number two on the list of the industries
emphasized.

In response to the OSHA NEP, TVA issued TVA Safety Procedure (TSP) 816
Combustible Dust to provide direction in complying with the OSHA NEP and
describe the requirements for TVA’s Combustible Dust Inspecting and Reporting
Program.5 TVA’s current Program began in 2010 as an effort to further define the
standards in TSP 816 and each plant’s level of compliance with these standards.
As part of the Program, combustible coal dust site assessments were performed
by Yard Systems Engineers, approximately every 6 months, at all TVA’s coal
plants. These assessments identified deficiencies and recommendations to
reduce dust, address spillage issues, and enhance the efficiencies of cleaning.

As part of the Program, each plant is to conduct monthly combustible dust
assessment reports, called Monthly Housekeeping reports, for coal yards and
powerhouses. According to TSP 816, if the coal dust exceeds 1/32 inch
thickness accumulation over a surface area of at least 5 percent of the floor area
of the facility or any given room, then cleaning of that area is required.


3
    The U.S. Chemical Safety and Hazard Investigation Board identified 23 combustible dust incidents
    related to the coal industry between 1984 and 2005 that killed 16 workers, injured 94 workers, and
    damaged electric service and other facilities.
4
    The OSHA NEP is based upon NFPA 654 “Standard for the Prevention of Fire and Dust Explosions from
    the Manufacturing, Processing, and Handling of Combustible Particulate Solids” issued in 2006.
5
    Unless otherwise noted, the term “Program” refers to TVA’s Combustible Dust Inspecting and Reporting
    Program.
Audit 2012-14631                                                                                 Page 2

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Audit Report


TVA’s Coal and Gas Operations organization, within the Generation organization,
is responsible for managing combustible coal dust. Mechanical Programs and
Components, within Generation’s Systems Engineering department, manages
TVA’s Combustible Dust Inspecting and Reporting Program.

Belt Conveyor System
Coal is carried from an unloading point or reclaim storage area to the
powerhouse by a belt conveyor system, which is composed of six major
elements: the belt, pulleys, drive, structure, belt support systems, and transfer
points. The continuous rubber belt is stretched between terminal pulleys, with
one end called the tail, where coal loading occurs and the other end called the
head, where coal is delivered. The belt is supported along the top and bottom
with rollers called idlers. Conveyors are driven by motors attached to a drive
pulley. In addition, conveyors consist of secondary equipment to improve the
systems operation. This includes components, such as take-up pulleys, belt
cleaners, tramp-iron detectors, skirtboards and seals, safety switches, and dust
suppression/collection systems, as shown in Figure 2 below.

High-capacity conveying systems handle hundreds of tons of coal per hour.
When even a small fraction of this tonnage is released, coal particles become
airborne creating suspended combustible coal. As mentioned previously, the
suspended coal dust eventually settles on a variety of surfaces, and over time,
the thickest layers accumulate in less-visible or hard-to-reach areas if
housekeeping activities are not routinely performed. One of the most common
areas of dust occurrence is at conveyor transfer points where loading, unloading,
crushing, or movement of the coal creates air currents that allow the coal
particles to become airborne, creating suspended coal dust that is carried away
from the conveyor system.




                                                  6
Figure 2: Conveyors’ common components.


6
    Illustration from “FOUNDATIONS™ The Practical Resource for Cleaner, Safer, More Productive Dust &
    Material Control, Fourth Edition” published in 2009 by Martin Engineering Company.
Audit 2012-14631                                                                               Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                   Audit Report


Coal Operations has identified coal dust explosions under the risk category of
Catastrophic Plant Accident in its Enterprise Risk Management (ERM) risk map.
The probability of occurrence is rated unlikely, and consequences are rated as
severe. Specifically, the ERM indicates recent events, both within this industry
and in other industries, handling combustible dust require more stringent
standards and dust accumulation must be lowered. The mitigation plan is to
reduce the risk of coal dust explosions by providing (1) combustible dust training
for all Coal Operations employees, (2) several separate coal dust audits
conducted by Generation Engineering and plant personnel and tracked for
improvement, (3) increased housekeeping personnel, and (4) projects planned
and in progress to minimize coal dust accumulations.

Specific activities included in the mitigation plan are: (1) coal dust explosion
online awareness training; (2) coal yard condition assessments; (3) coal dust
accumulation self-assessments; (4) capital projects, such as repairing dust
collectors and coal chutes, to reduce dust accumulation or improve cleaning
capability; (5) Operations and Maintenance (O&M)/staff augmentation programs
to clean coal dust; (6) annual coal dust audit with Work-Off Curve developed; and
(7) implement Class II, Division 27 electrical equipment studies and resultant
projects.

Airborne dust is created whenever coal is moved, manipulated, and subjected to
air currents strong enough to raise or redirect the small particles within the coal.
Containment is the preferred method of controlling coal dust, which is more
economical in the long run than continual cleanup. However; if dust is not initially
contained, water is the most effective and preferred means of cleaning in a coal
dust environment. Additional housekeeping methods include using explosion
proof vacuums, sweeping, mopping, and foam cleaning.

OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objective was to evaluate the adequacy of actions taken to mitigate
combustible coal dust risk. The scope of the audit was fiscal years (FY) 2010 to
present. To achieve the audit objective, we:

    Identified and reviewed policies, procedures, and regulations related to
     combustible coal dust to identify requirements and maximum-allowed
     standard accumulations levels. We relied on TSP 816 for audit criteria
     because it established Program requirements based on industry
     standards. For the purposes of this report, we focused on the 1/32 inch
     dust accumulation standard, dust combustibility, written dust programs,
     equipment, operating conditions, and dust suppression identified in that
     procedure.

7
    Class II, Division 2 is the NFPA location classification where combustible dust accumulations could
    interfere with electrical safety, including coal handling areas, and sets the minimum safety standards for
    any electrical equipment in those areas.
Audit 2012-14631                                                                                        Page 4

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


   Interviewed personnel in TVA’s Coal Operations organization, within the
    Generation organization, and coal plant sites selected in our sample (as
    described below) to gain an understanding of TVA’s risks associated with
    combustible coal dust, identify financial resources allocated for combustible
    coal dust management, and determine the consequences of uncontrolled coal
    dust accumulations.
   Relied on the expertise of TVA’s Fossil Fire Protection Manager and one of
    TVA’s Yard Systems Engineers, both of whom were assigned to combustible
    dust management, to assist in identifying (1) areas of concern at plants visited
    and (2) combustible coal dust management best practices.
   Obtained and reviewed coal dust plant assessment Monthly Housekeeping
    reports to determine which plants had low, moderate, or high amounts of coal
    dust. Based on these reports, we judgmentally selected three of TVA’s coal
    plants for review: Bull Run Fossil Plant (BRF), Cumberland Fossil Plant
    (CUF), and Paradise Fossil Plant (PAF). These three coal plants accounted
    for 42 percent of TVA’s net generating capacity from coal. We performed site
    walkdowns at these plants, which were ranked with low, moderate, and high
    amounts of coal dust, in order to identify conditions associated with varying
    risk levels. Because we used a nonstatistical method for selecting our
    sample, there is no basis for projecting the results to the entire population.
   Reviewed site assessment reports prepared by TVA’s Yard Systems
    Engineers for all TVA coal plants to determine what sources of combustible
    coal dust and associated challenges had been self-identified.
   Obtained and reviewed Compliance Reports related to coal dust
    housekeeping issues. Only one Compliance Report pertained specifically to
    housekeeping issues, ALF. As a result of TVA’s Compliance Report from
    ALF, we did not perform a site walkdown.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.




Audit 2012-14631                                                               Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report


FINDINGS
We evaluated the adequacy of actions taken to mitigate combustible coal dust.
Despite some improvements in combustible dust management, actions to date
have been inadequate to improve deteriorating equipment conditions, address
housekeeping challenges, and provide appropriate monitoring of combustible
dust conditions at TVA’s coal plants.

Although the probability of occurrence for coal dust explosions was rated in the
ERM risk map as unlikely by TVA, the potential consequences of an explosion
are severe and could result in disruption of generating capacity, costly clean up
and repairs, and even loss of life. TVA’s aging equipment presents a great
challenge toward achieving compliance with Program requirements. Coal plant
and coal handling conditions currently exceed acceptable dust level limits
specified in TSP 816. We observed coal dust accumulations exceeding
1/32 inch in many of the coal handling areas during our walkdowns at BRF, CUF,
and PAF. TVA self-identified coal dust accumulations above the allowable
standard in many areas throughout the coal fleet. In addition, monitoring tools
required by the Program are not being used consistently to improve plant
conditions.

Site assessment reports performed by Yard Systems Engineers indicated some
conditions improved between 2010 and 2012. Some equipment deficiencies are
being addressed, and there are several programmatic practices in progress that
will improve conditions over time.8 However, equipment has deteriorated faster
than funding has been available for repairs or replacements. Deficiencies
resulting from inadequate equipment maintenance contribute to the increased
presence of combustible coal dust and coal accumulations within the coal
handling system. With deteriorating equipment and recent staff reductions for
housekeeping, TVA faces significant challenges for keeping coal dust
accumulations within limits provided by TSP 816. More focus is needed on the
Program in order to better contain coal dust and reduce the necessity for
extensive and repeated housekeeping activities to achieve dust accumulations
below the 1/32 inch standard.




8
    For example, ALF and KIF (Kingston Fossil Plant) incorporated state of the art technology to reduce
    dusting and spilling of coal being transferred to conveyors; PAF added a water-fogging dust suppression
    system on multiple conveyors; ALF added a dust collector system and belt cleaners/scrapers; and ALF
    and CUF added spill pans to various areas of the belt line.
Audit 2012-14631                                                                                    Page 6

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                 Audit Report




         Picture 1: Dust accumulations greater than 1/32 inch, as observed during
         our walkdown at CUF on August 14, 2012. This is a beam on top of the
         Surge Hopper building.

Equipment Conditions Are Deteriorating
The primary method for preventing a coal dust explosion is to contain the coal
dust in order to reduce or eliminate the amount of dust dispersed. The obvious
place for a coal dust explosion to begin is where coal dust has accumulated.
Inspection and maintenance of coal handling equipment is important because
it identifies problems before they become a disaster, reduces the potential for
ignition sources, and reduces the amount of combustible coal dust in coal
handling areas.

As mentioned previously, TVA’s Yard Systems Engineers have performed
combustible coal dust site assessments at all TVA coal plants. We reviewed the
most recent Yard Systems Engineers’ site assessments as of September 2012
and TVA’s 2012 Compliance Reports for ALF. Based on our review, we
determined TVA self-identified excess coal dust accumulations at all coal plants.

By performing walkdowns of all coal handling areas at each coal plant, Yard
Systems Engineers identified coal handling equipment deficiencies that
contributed to coal dust accumulation. These assessments include
recommendations to reduce dust, address spillage issues, and enhance the
efficiencies of cleaning. Equipment deficiencies identified during the assessment
are itemized by plant. All deficiencies are compiled into one spreadsheet which
is used to create a graph called the Work-Off Curve, and provides the basis for
prioritizing equipment deficiencies. The prioritization helps determine capital
improvements and O&M budgets for items with associated estimated costs.
Each plant has two Work-Off Curves: one for the coal yards and one for the
powerhouse.
Audit 2012-14631                                                                     Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report


Together, the Yard Systems Engineers, Plant Systems Engineers, and other site
personnel review the deficiencies identified and determine the funding available
to remedy each deficiency as well as a target completion date. The goal of the
Work-Off Curve is to add equipment deficiencies as they are discovered and add
completion dates once deficiencies have been updated. The Master Work-Off
Curve is maintained by the Yard Systems Engineers. The Work-Off Curve was
designed to be updated quarterly by plant personnel and is only as accurate as
the information entered by plant personnel. According to the Yard Systems
Engineer, not all plants use the Work-Off Curve for its intended purpose, but
rather some plants use the Work-Off Curve to maintain documents at the plant
level describing equipment deficiencies. Where alternative tracking methods are
being used to manage deficiencies related to combustible dust and monitor
progress at the plant level, the Yard Systems Engineer stated the Work-Off
Curves have become a redundant activity. In our opinion, regularly updated
Work-Off Curves or similar tracking methods are needed at all plants to maintain
consistency and manage funding that may become available at the corporate
level.

We noted some plants have taken positive steps to improve containment and
help reduce combustible coal dust in spite of equipment deficiencies.
Specifically:

   ALF and KIF have incorporated state of the art technology in load zones to
    reduce dusting and spilling of coal being transferred to conveyors.
   PAF added a water-fogging dust suppression system on multiple conveyors
    and added fixed washdown systems on two conveyors.
   ALF added a dust collector system and belt cleaners/scrapers.
   ALF and CUF added spill pans to various areas of the belt line, as shown in
    Picture 2 on the following page.




Audit 2012-14631                                                             Page 8

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                   Audit Report




         Picture 2: A spill pan as observed at CUF on August 14, 2012, in the Rotary
         Breaker building. Spill pans help eliminate accumulation of coal dust.

Despite these and other efforts to address coal dust issues, we observed
deteriorating equipment conditions during our site walkdowns at BRF, CUF, and
PAF and discussed our observations with each plant manager. The following
eight photos provide examples of some of the conditions we observed.




         Picture 3: A deteriorated seal around the chute door as observed at PAF
         on August 28, 2012, located at the Alpha Station Breaker. Deterioration in
         the chute allows coal dust to escape.




Audit 2012-14631                                                                       Page 9

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                   Audit Report




         Picture 4: A deteriorated chute allowing coal dust to escape as observed at
         CUF on August 13, 2012, located at Transfer Station B.




         Picture 5: Deterioration around the skirt box opening allowing coal dust to
         escape as observed at PAF on August 27, 2012, in the West Bunker room.




Audit 2012-14631                                                                       Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                   Audit Report




         Picture 6: A skirting system in need of adjustment or replacement as
         observed at PAF on August 27, 2012, in the West Bunker room (BC-22).
         Misaligned skirts cause coal dust leaks. This picture illustrates coal
         leaking onto a white notebook held by the Auditor.




         Picture 7: A skirt seal in need of alignment as observed at CUF on
         August 14, 2012, in Silo 1 (BC-9).




Audit 2012-14631                                                                     Page 11

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                  Audit Report




         Picture 8: A worn belt due to misalignment causing coal dust leaks as
         observed at BRF on September 25, 2012, along Belt Feeder 2.




         Picture 9: A skirt box too wide as observed at BRF on September 25, 2012,
         along BC-7. Skirt boxes that are too wide cause coal leaks.




Audit 2012-14631                                                                     Page 12

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report




          Picture 10: A gouge in a belt cleaner causing coal dust leaks as observed
          at CUF on August 13, 2012, along BC-16.

Funding Has Not Kept Pace With Equipment Deterioration
Each coal plant operates with limited funding for correcting equipment
deficiencies. According to TVA personnel, for the past several years funding for
equipment deficiencies that contribute to dust accumulation was included in each
plant’s O&M budget with no additional funding dedicated to fixing equipment
deficiencies identified on the Work-Off Curves. Over time, equipment has
deteriorated faster than funding was available to repair or replace the equipment.
These equipment inadequacies and deficiencies contribute to increased presence
of combustible coal dust and coal accumulations within the coal handling system.
In our opinion, TVA’s aging equipment presents a great challenge toward
achieving compliance.

We observed numerous conditions contributing to excess coal dust
accumulations and increasing the need for additional equipment and
housekeeping efforts:

     As part of the plants’ washdown9 process, whether it is by hosing or using
      fixed systems, accumulations of water and coal slurry10 can build up and clog
      drains. TVA coal plants have sump pumps which are used to remove excess
      coal slurry and unwanted accumulations of water from washdown. During our
      walkdown at BRF, we observed the existing sump pumps under the Silo,
      Beaker building bottom floor, and the basement of Transfer A were
      inadequate or deficient which caused unwanted accumulations of water and
      coal slurry during washdown. Specifically, water and slurry were standing in

9
     If dust is not initially contained and is allowed to accumulate, water is the most effective means of
     cleaning in a coal dust environment, which is referred to as washdown
10
     Coal slurry is a waste fluid produced by washing coal with water.
Audit 2012-14631                                                                                         Page 13

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                    Audit Report


    the areas shown below in Pictures 11 and 12. This problem causes
    additional housekeeping challenges and limits the use of washdowns by
    clogging drains.




         Picture 11: Slurry several inches deep covering the Auditor’s boot as
         observed at BRF on September 25, 2012, in the Breaker building.




         Picture 12: Footprints the Auditor made in slurry as observed at BRF on
         September 25, 2012, in the Breaker building.



Audit 2012-14631                                                                      Page 14

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                Audit Report


   A dust collector system is used in coal handling areas to enhance the quality
    of air released by collecting dust and other impurities from the air. Designed
    to handle high volume dust loads, a dust collector system consists of a
    blower, dust filter, filter-cleaning system, and dust receptacle or dust removal
    system. During our site walkdowns at BRF, CUF, and PAF, we observed
    abandoned dust collector systems and associated duct work. These
    abandoned systems increase the need for housekeeping efforts because coal
    dust accumulates on the abandoned equipment and has to be cleaned.
    According to the TVA Yard Systems Engineer, these systems have not been
    in service for years due to the lack of funding to repair or replace nonworking
    equipment.




         Picture 13: Duct work from an abandoned dust collector system as
         observed at CUF on August 13, 2012, in the Unit 1 South Bunker room
         (BC-25).




Audit 2012-14631                                                                  Page 15

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                  Audit Report




           Picture 14: An abandoned dust collector system as observed at CUF
           on August 13, 2012, in the Unit 1 North Bunker room (BC-23).




           Picture 15: Open coal chute doors above the feeder platform as
           observed at PAF on August 28, 2012. We also observed open and
           deteriorating chute doors at head pulleys, tail pulleys, transfer points,
           and feeders at BRF and CUF. Open chute doors allow dust to be expelled
           into the surrounding area, adding to housekeeping efforts and increasing
           the hazard of coal dust explosions.

TVA designated an additional $17.4 million from capital reserves to supplement
the plants’ combined O&M budgets of $4.9 million for combustible coal dust
improvements in FY2013. This additional funding will be used for repairs to
belts, breakers, barge unloader buckets, chutes, skirts, and seals, all of which
impact combustible coal dust.
Audit 2012-14631                                                                       Page 16

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


Housekeeping Challenges Are Not Being Met
In the power industry, housekeeping means controlling dust and preventing
spills. Particular attention must be paid to cleaning because the buildup of dust
on the walls of bunkers, silos, along conveyors, and transfer points poses safety
problems if the coal dust is left unattended. These cleaning efforts could include
washing, vacuuming, sweeping and mopping (adequate only for floors), and
foaming. Housekeeping must be a priority within the plant’s culture and be
continually supported by management in order to keep combustible coal dust
levels below the 1/32 inch OSHA NEP standard. According to TSP 816, all
surfaces should be cleaned, including beams, walls, equipment, ducts, and
floors, among other surfaces.

As previously stated, if dust is not initially contained and is allowed to
accumulate, water is the most effective means of cleaning in a coal dust
environment, which is referred to as washdown. To operate effectively,
washdowns require proper equipment seals and adequate drainage. Methods of
washdown include simply a laborer pointing a hose to the area, installing fixed
washdown systems consisting of a series of engineered spray nozzles
throughout conveyer areas, or utilizing fixed fire suppression water spray
systems to clean coal dust from conveyor belts. Fixed washdown systems are
the most efficient and effective ways to get water to the correct places for
cleaning combustible dust. Fixed systems reduce labor cost, require less water,
and result in cleaner areas. Generally speaking, a fixed washdown system
cleans the target area in one quarter of the time needed for manual washdowns
and typically requires only one person to operate. We observed a fixed
washdown system in use during our site walkdown at PAF. Due to the cost of
these systems and the cost to retrofit plants for the systems, PAF is the only TVA
plant that has these systems. Additionally, all TVA coal plants have fixed fire
suppression water spray systems along the belt conveyors that may provide
viable washdown methods, if adequate drainage is provided.

The Office of the Inspector General conducted an Inspection of TVA’s Fossil Fire
Protection Systems in 201111 which identified areas of significant coal dust
accumulations at several sites and recommended regular coal washdowns to
minimize coal dust accumulations. TVA management agreed with our
recommendation and committed to regular coal washdowns in FY2012 and
beyond.

According to TVA personnel, staff augmented labor was used for cleaning
combustible dust but was cut in 2012 under TVA’s Diet and Exercise program.
There is not enough annual plant staff to keep up with the housekeeping related
to combustible coal dust. TVA personnel stated that without enough labor to
clean everything, plants need to prioritize areas to be cleaned and set a high
priority for cleaning areas next to the boilers to minimize exposure to sparks and
hot cinders.

11
     Inspection 2010-13530 – Review of TVA’s Fossil Fire Protection Systems, issued on September 30, 2011.
Audit 2012-14631                                                                                 Page 17

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                  Audit Report


Although housekeeping efforts are active throughout the coal fleet, several
factors contribute greatly to TVA’s inability to keep pace with housekeeping
requirements and leave TVA facing significant challenges to meet TVA’s
requirements for compliance with OSHA NEP standards. Among the most
notable factors are recent reductions of staff dedicated for housekeeping and
reductions in the funding for equipment improvements and upgrades.

High Priority Areas of Coal Dust Accumulation Need Attention
Coal dust that is carried into high areas of the plant, such as overhead beams,
creates prime areas where secondary explosions can occur because these areas
may not be inspected or cleaned as frequently as they should be due to
unreachability or poor visibility. We observed dust accumulations on overhead
beams, joists, tops of equipment, cable trays, piping, conduits, and duct work that
exceeded 1/32 inch. We also observed ½ to 1 inch of coal on floors under boiler
archways. These are somewhat enclosed areas located dangerously near
boilers and should be considered high priority for cleaning to remove the dust
accumulations. More attention is needed for cleaning high overhead and hard-
to-reach areas and susceptible areas near boilers.

We observed coal and dust accumulations on idlers during our walkdowns at
BRF, CUF, and PAF. Cleaning of idlers should be high priority as idlers
embedded in coal can seize or generate heat and may eventually ignite the
surrounding combustible material.




         Picture 16: Coal and dust accumulations on idlers at a tail pulley as
         observed at CUF on August 13, 2012. We observed similar conditions at
         BRF and PAF.



Audit 2012-14631                                                                    Page 18

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


Tools for Monitoring Combustible Dust Conditions Are Not Consistently
Used
The Program involves several tools for managing combustible dust risks,
monitoring plant conditions, and setting priorities for remediation. These tools
include site-specific dust management plans, quarterly site assessments,
Monthly Housekeeping reports, and sampling for combustibility.

TSP 816 states that a written dust management plan should be developed by all
coal plants for hazardous dust inspection, combustibility testing, housekeeping,
and controls. Specifically, a dust management plan should:

   Define responsibilities for Program controls at each plant.
   Require documentation of daily, weekly, monthly, and quarterly inspections for
    housekeeping compliance to the combustible dust standards.
   Define requirements for placing warning signs for combustible coal dust.
   Detail cleaning frequencies needed to achieve compliance.

According to TVA personnel, some plants do not have a site-specific dust
management plan. BRF, KIF, and Shawnee Fossil Plant are the only plants that
had site-specific dust management plans available in TVA’s Procedure Center.
Dust management plans were not available for the other seven operating coal
plants. Until recently, TVA has not enforced the necessity to develop site-
specific plans. Although several of the coal plants that do not have dust
management plans will most likely be idled or closed in the next few years, dust
management plans are needed for the coal plants that will remain in service in
order to properly mitigate combustible dust accumulations and prevent damage
from dust hazards.

Quarterly combustible coal dust site assessments identify combustible coal dust
hazards and help personnel understand the gaps that exist between safe
practices and compliance and actual conditions. According to the Yard Systems
Engineer, staff reductions and budget crunches have impacted the ability to
perform quarterly site assessments. As a result, only one site assessment has
been conducted since September 2012.

Although the plant housekeeping reports are completed monthly, these reports
are not an accurate tool for evaluating dust conditions because the reports occur
at a particular point in time and may not accurately reflect overall plant conditions
that can change quickly. This reporting could be conducted at the dirtiest time or
the cleanest time for plant conditions. If an assessment is conducted while the
plant is not running, conditions could reflect positively in the housekeeping report.
Within hours, the plant could start running and conditions would change
drastically and reflect poorly in the housekeeping report. Additionally, reported
plant conditions are subject to personal interpretation which varies from plant to
plant, further contributing to the questionable accuracy of these monthly reports.

Audit 2012-14631                                                              Page 19

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


According to TVA personnel, to evaluate the combustibility of any dust, including
fly ash, the dust should be sampled and analyzed to determine the loss-on-
ignition (LOI). Based upon Factory Mutual Testing that was performed for the
American Electric Power Company, TVA requires that any dust testing with
15 percent or greater combustible product should be treated as a combustible
dust, and the 1/32 inch maximum accumulation standard applies. We observed
areas where fly ash dust12 accumulations were being cleaned at BRF before
areas of combustible coal dust. However, LOI sampling to date has only been
performed upon request from TVA’s Fire Protection staff when it is probable
there is a combustible dust problem, particularly after a fire has occurred in the
upper elevations of a powerhouse around the boiler. A draft revision to TSP 816,
which is under review, requires a minimum of quarterly LOI testing of fly ash
dust. Regular sampling and analysis is necessary to determine the dust
combustibility and establish housekeeping priorities.

Without site-specific dust management plans, quarterly site assessments,
accurate monthly reports, or routine LOI sampling, plants cannot effectively
monitor conditions or set appropriate remediation priorities.

RECOMMENDATIONS
We recommend the Senior Vice President, Power Operations:

1. Request corporate and plant staff to work together on a plan for correcting
   equipment deficiencies and work toward completion of the plan to improve
   coal dust containment. The plan should:
      a. Include estimates for resource requirements, such as funding, staff, and
         equipment needs.
      b. Include monitoring progress of equipment remediation quarterly using the
         same tracking method (similar to Work-Off Curves).
      c. Consider conducting plant walkdowns with peers from other plants and
         exchange ideas to improve coal dust management.

2. Work with coal plants to minimize dust accumulations and address
   housekeeping challenges. Include actions, such as keeping all chute doors
   closed while coal is being transported and ensuring there are properly
   operating sump pumps and drains for removing washdown water and coal
   slurry.

3. Dedicate more attention to address housekeeping challenges, particularly
   cleaning high overhead, hard-to-reach areas and other priority areas.

4. Develop site-specific dust management programs as required by TSP 816 to
   define expectations, establish standards, and monitor and document results.
12
     Fly ash dust is very fine, powdery material resulting from the combustion of coal. Fly ash alone is not
     considered combustible.
Audit 2012-14631                                                                                       Page 20

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                              Audit Report


    Develop site combustible dust teams and allocate adequate resources to meet
    the site-specific housekeeping goals.

5. Perform monthly and quarterly assessments for housekeeping compliance to
   the combustible dust standards, as required by TSP 816, and correct
   deficiencies in a timely manner to address housekeeping challenges.

6. Test fly ash dust quarterly to determine LOI levels for combustibility.

MANAGEMENT’S RESPONSE AND OUR EVALUATION
TVA management responded to a draft of this report and agreed with our
recommendations. Management has taken or is taking the following actions:

   Committed to using a previously created short- and long-term combustible
    dust projects spreadsheet that includes fleet wide prioritization and funding
    requirements and is updated quarterly. Power Operations Performance &
    Oversight will coordinate with Corporate Engineering personnel to work with
    TVA plant employees to update this spreadsheet by December 31, 2013.
    Subsequent updates will be performed quarterly.
   Developed a Combustible Dust Program document with collaboration
    between Power Operations personnel, Corporate Engineering, and Corporate
    Safety. This document contains 16 Combustible Dust Program milestones
    that define standards and set expectations including minimizing coal dust
    accumulations, preventing housekeeping challenges, developing site-specific
    dust management programs, performing combustible dust assessments, and
    testing LOI levels for combustibility. An SPP will be developed and approved
    during FY2014 to replace the program document.
   In addition to the inspection and housekeeping details provided in the
    program document, Power Operations will continue to evaluate projects, such
    as installing shed plates to prevent reaccumulation of dust in hard-to-reach
    areas.
   Develop a site-specific combustible dust procedure template that will be
    provided to all coal sites. This template will be completed by December 31,
    2013. Each site will use the template to develop site-specific combustible
    dust procedures by May 30, 2014.

With regard to our recommendation to perform monthly and quarterly
assessments for housekeeping compliance as required by TSP 816, TVA
management responded that TSP 816 is being phased out and replaced with
TSP 1205 which no longer requires quarterly assessments. However, TSP 1205
does require daily, monthly, and annual assessments which will be part of Power
Operations Combustible Dust Program.

The Office of the Inspector General agrees with the actions planned and taken by
TVA management in regards to all recommendations.
Audit 2012-14631                                                                Page 21

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 3 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 4 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 5 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 6 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 7 of 7




TVA RESTRICTED INFORMATION
